IN THE
SUPREME COURT OF THE UNITED STATES

KEVIN C. SUTHERBY - Petitioner
-vsSHERMAN CAMPBELL - Respondent

PROOF OF SERVICE
Ii Kevin C. Sutherby, do swear or declare that on this date,
as required by Supreme Court Rule 29, I have served
the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI

on

each party

to

the above

proceeding or that partys counsel, and or every other person required
to be served, by depositing an envelope containing the above documents
in the United States mail properly addressed to each of them and with
first-class

postage

prepaid,

or

by

delivery

to

a

third-party

commercial carrier for delivery within 3 calendar days.
The name and address of those served are as follows:

I declare under penalty of perjury that the foregoing is true and
correct.
Executed on:

ilfo/ftia-n

frtsgtm

Submitted.
JOHN J. LUNDY
NOTARY PUBLIC, STATE OF Ml
COUNTY OF WAYNE
MY COMMISSION EXPIRES Jun 25,2023
ACTING IN COUNTY OF

/

Additional material
from this filing is
available in the
Clerk's Office.

